           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   Audit Announcement—FY 2005 Audit                          Date:    January 21, 2005
           of the Federal Highway Administration’s
           Inactive Obligations
           Project No. 05F3013F000

  From:    Theodore Alves                                         Reply to
                                                                  Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits
    To:    Federal Highway Administrator

           In response to the Fiscal Year 2005 U.S. House and Senate Department of
           Transportation Committee on Appropriations report (108-671), the House
           requested the Inspector General to review records in 10 additional states to
           identify inactive obligations. As directed by Congress, we are initiating an audit
           of inactive obligations within the Federal Highway Administration (FHWA). Our
           objective is to determine the extent to which FHWA has implemented prior OIG
           recommendations on reviewing inactive obligations and to estimate the amount of
           inactive obligations that were unneeded as of December 31, 2004.

           We plan to start this audit the week of January 17, 2005. We will contact your
           audit liaison to schedule an entrance conference date to discuss the planned audit.
           For additional information, please contact Earl Hedges, Program Director, or
           Mary Smothers, Project Manager, at (410) 962-3612.

                                                   #

           cc: Martin Gertel, M-1
